OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/COLOMBIA’S
CONSOLIDATION AND
ENHANCED LIVELIHOOD
INITIATIVE—CENTRAL REGION
AUDIT REPORT NO. 1-514-14-004-P
JANUARY 16, 2014




SAN SALVADOR, EL SALVADOR 

Office of Inspector General



January 16, 2014

MEMORANDUM

TO:      	         USAID/Colombia Mission Director, Peter Natiello

FROM: 	            Regional Inspector General/San Salvador, Jon Chasson /s/

SUBJECT:	          Audit of USAID/Colombia’s Consolidation and Enhanced Livelihood Initiative—
                   Central Region (Report No. 1-514-14-004-P)

This memorandum transmits our final report on the subject audit. In finalizing the audit report,
we considered your comments on the draft report and included them in their entirety in
Appendix II.

This report includes two recommendations. Your written comments in response to the draft
report indicate that you have made a management decision on one and taken final action on the
other. Please provide the Audit Performance and Compliance Division in the USAID Office of
the Chief Financial Officer with the necessary documentation to achieve final action.

Thank you and your staff for the cooperation and assistance extended to us during this audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
http://oig.usaid.gov/
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 3 


     Initiative Did Not Achieve Expected Results ........................................................................... 3 


     Agency Does Not Have Counter-Trafficking in Persons Training for Implementers ............... 6 


Evaluation of Management Comments..................................................................................... 8 


Appendix I—Scope and Methodology ...................................................................................... 9 


Appendix II—Management Comments ................................................................................... 11 


Appendix III—Map of Regions Covered by the Initiative....................................................... 13 


Appendix IV—Deliverables Submitted Late ........................................................................... 14 





Abbreviations

The following abbreviations appear in this report:

CELI 	          Consolidation and Enhanced Livelihood Initiative
COR 	           contracting officer’s representative
CSDI	           Colombia Strategic Development Initiative
C-TIP	          counter-trafficking in persons
FY	             fiscal year
RIG	            Regional Inspector General
UACT	           Unidad Administrativa de Consolidación Territorial (Administrative Unit for Territorial
                Consolidation)
SUMMARY OF RESULTS 

According to the U.S. State Department, endemic violence and social inequities, combined with
limited government presence, led to the expansion of illicit drug cultivation and an illicit economy
in large areas of Colombia. To address these problems, the Colombian Government unveiled
Plan Colombia in 1999 as a comprehensive strategy to promote peace, combat the narcotics
industry, revive the national economy, improve respect for human rights, and strengthen
Colombian democratic and social institutions.

It was not until 2004 that the Colombian Government was able to establish, for the first time in
recent history, a presence in all the country’s municipalities. As summarized by USAID, the
National Territorial Consolidation Plan announced in 2007 seeks to “consolidate military, law
enforcement, and social gains by building state presence and growing the licit economy in
previously ungoverned regions, integrating them into Colombia's broader political, economic,
and institutional fabric.”1 To support this effort, USAID initiated the Consolidation and Enhanced
Livelihood Initiative—Central Region (CELI-Central) on April 20, 2011. USAID/Colombia
selected ARD Inc. (which has been acquired by Tetra Tech) to implement the 5-year, $115
million initiative; Tetra Tech focused its efforts on 20 municipalities in the departments of
Caquetá, Cauca, Meta, Tolima, and Valle del Cauca, shown in the map in Appendix III.

When it entered the municipalities, Tetra Tech implemented rapid-response activities to build
trust. These activities included small infrastructure projects such as building school bathrooms,
cafeterias, and playgrounds, as well as paving roads and equipping libraries and other
community gathering places. Later, Tetra Tech focused on grant making. Most of CELI-Central’s
budget provides grants for training, short-term technical assistance, and procurement in support
of community-led activities. As of September 30, 2013, $49 million had been obligated, and $36
million had been spent.

The Regional Inspector General/San Salvador (RIG) conducted this audit to determine whether
USAID/Colombia was achieving its main goal of helping the Colombian Government become a
sustainable presence in target municipalities.

The audit determined that the mission has made limited progress towards achieving its main
goal. During the first 2 years of operations, the initiative did not achieve all of its expected
results, often because initial targets were too ambitious. In addition, some activities started or
finished late, and Tetra Tech had turnover problems (page 3).

Despite this, through the initiative the mission successfully implemented a number of activities
designed to help communities gain confidence in the government. Some examples include.

    CELI-Central approved 581 activities primarily in the areas of infrastructure, land ownership,
     economic development, good governance, and social development; as of September 30,
     2013, 423 activities had been completed, 138 were being implemented, and 20 were about


1
    USAID fact sheet, “Colombia Program at-a-Glance,” accessed on January 8, 2013, at
    http://www.usaid.gov/sites/default/files/Colombia%20Country%20Fact%20Sheet%20Augst%202013_U
    SAID_at_a_Glance.pdf.



                                                                                                  1
   to begin. CELI-Central’s commitment of $38 million was able to mobilize $114 million from
   public sources and $17 million from private sources as counterpart contributions.

	 The initiative used funds in response to urgent priorities. For example, after an interethnic
   conflict in Cauca was in the national news, the Colombian Government asked Tetra Tech to
   undertake activities in that region. The implementer responded by opening an office within
   90 days. One of the initial activities supported the identification of suitable land that the
   government could buy in order to settle land ownership disputes, which was at the root of
   the conflict. The initiative provided topographic surveys and technical assistance to expedite
   the process.

	 In response to a request from the government, CELI-Central started working with municipal
   administrations to design investment projects using profits from oil, gas, and mineral
   development in Colombia. This process required close coordination and planning with
   various stakeholders, including community leaders, government officials, and civic
   associations—a cultural and organizational shift for the public institutions leading the
   process, which had been accustomed to working independently. Tetra Tech organized a
   series of workshops to train public officials in doing financial analysis and writing proposals.
   This important capacity-building initiative should allow municipal officials to tap new sources
   of funds and strengthen their planning and management skills.

	 CELI-Central assisted the formation of 36 productive alliances under the supervision of the
   Ministry of Agriculture and Rural Development. Tetra Tech developed these alliances through
   a competitive grant program that provided technical assistance to farmer and producer
   associations seeking to improve their businesses through partnerships with distributors.

In addition, Tetra Tech successfully implemented an information system for monitoring its
numerous activities. This management tool registers nearly all transactions. For example, it
keeps track of paid advances and contains digital copies of supporting documentation. A typical
activity record could contain activity approval documents, minutes from meetings, attendance
lists, subcontracts, expected results, required deliverables, invoices, and information on
counterparts’ contributions. The system is Web-based, allowing Tetra Tech to share information
instantaneously with USAID and Tetra Tech’s home office in Vermont, as well as with its five
offices in Colombia.

The audit also found that the mission had not provided counter-trafficking in persons training to
implementers (page 7).

To improve the effectiveness of the initiative and mission operations, the audit recommends that
USAID/Colombia:

1. 	 Work with Tetra Tech to modify the overall budget and work plan to take into account the
     low level of spending during the initiative’s first 2 years and changes in the budgets of each
     regional office (page 6).

2. 	 Issue to all its implementers the USAID Counter-Trafficking in Persons Field Guide, which
     includes guidance for reporting suspected cases of trafficking through the Office of Inspector
     General Hotline (page 7).

Detailed findings follow. Appendix I describes the audit scope and methodology. The mission’s
comments appear in Appendix ll, and our evaluation of the mission’s comments is on page 8.


                                                                                                 2
AUDIT FINDINGS

Initiative Did Not Achieve
Expected Results
Automated Directives System 203.3.2 states that USAID analyzes performance by comparing
actual results achieved with targets set at the beginning of a project. This analysis is critical in
determining the progress made in achieving the impacts and outcomes. Missions should use
this to confirm or refute the stated assumptions and hypotheses so they can adapt projects and
objectives as necessary.

Despite poor early results in fiscal year (FY) 2011 and FY 2012, the mission has not yet formally
adapted its plans and budgets since Modification 3, signed on June 22, 2012. As of August
2013, CELI-Central’s performance management plan included 27 contractual indicators. Only
16 were relevant at the time of our audit, and 12 (or 75 percent) of those reported results were
lower than the corresponding targets. The table below shows each indicator, its cumulative
target, and its reported result as of September 30, 2013.

            Indicators, Targets, and Results as of September 30, 2013 (Audited)
                   Indicator                       Cumulative      Reported Result     Percent of
                                                     Target                              Target
                                                                                        Reached
1. Public funds leveraged in Colombia              36,000,000         19,817,747           55
     Strategic Development Initiative (CSDI)
     zones attributable to U.S. Government
     interventions
2. Number of rapid impact projects                    125                 211              169
     implemented by U.S. Government
     implementers
3. Number of strategic national social                 11                  4               36
     programs implemented in CSDI
     municipalities
4. Number and percentage of people                   24,000             17,913             75
     benefitted by national social programs
     implemented in CSDI municipalities
5. Number of beneficiaries receiving improved        70,000             85,048             122
     services through infrastructure
6. Number of civil society organization               1,850               542              29
     members supported by U.S. Government
     assistance
7. Change in index of organizational capacity      43 percent            none               0
     of civil society organizations supported by
     U.S. Government assistance
8. Value of incremental sales of key                5 percent            none               0
     supported products in CSDI zones
9. 	 Number of strategic rural and economic             7                  2               29
     development programs with territorial
     approach implemented in CSDI
     municipalities




                                                                                                    3
                   Indicator                          Cumulative       Reported Result      Percent of
                                                        Target                                Target
                                                                                             Reached
10. Number and percentage of people                     25,000                 77               0
    benefitted by strategic rural and economic
    development programs with territorial
    approach, implemented in CSDI
    municipalities
11. Private sector funds leveraged in CSDI            15,000,000           1,859,075             12
    zones attributable to U.S. Government
    interventions
12. Number of private-public alliances formed             10                  16                160
13. Number of rural households benefiting                8,750               2,841               32
    directly from U.S. Government
    interventions
14. Number of people with a financial product            3,423               none                0
    from a local financial institution
15. Total value of CSDI projects approved             73,500,000          162,691,350           221
16. Total value of CSDI projects completed            54,600,000           33,836,250            62
Sources: Tetra Tech’s information system and performance management plan, and USAID/Colombia’s contracting
officer’s representative (COR).


USAID/Colombia and Tetra Tech officials offered the following reasons for the limited progress.

Indicator Targets Were Too Ambitious in Fiscal Years 2012 and 2013. USAID/Colombia
was unable to meet indicator targets because it underestimated the time and effort necessary to
lay the groundwork for a demand-driven, sustainable methodology built on community
ownership. Tetra Tech spent a disproportionate amount of time conducting orientation
workshops while engaging municipal, departmental, and national institutions in parallel efforts to
foster partnerships for successful planning and implementation. USAID/Colombia spent too
much time on these initial activities and did not start medium- and long-term activities that were
to contribute to the selected indicators.

Intermediate Indicators Were Lacking. The program’s indicators measure outcomes such as
sustainable livelihoods, the stabilization and reintegration or return of conflict-affected
populations, improved governance, and increased access to justice. The results will not be
known until the longer-term interventions are closed and results are reconciled. Therefore,
indicator results for FYs 2012 and 2013 did not reflect CELI-Central’s intermediate
achievements. Most of these indicators were inappropriate, and targets for these years were not
realistic.

Other Stakeholders Caused Delays in Activity Start-Up and Completion. The COR
explained that CELI-Central’s success depends on negotiating constructive relationships with
key stakeholders, including a new government agency—Unidad Administrativa de
Consolidación Territorial (UACT)—designed to assist with development activities in the
municipalities and communities.

Although interinstitutional efforts to guarantee that the Colombian Government had a presence
throughout the country and to reduce illegal crops date back to 2004, this objective was not
really carried out until UACT was created on November 3, 2011—7 months after CELI-Central




                                                                                                         4
began. Because the initiative’s strategy required close interaction with UACT, the delays in
establishing this unit postponed the start of numerous activities.

In addition, the municipal and departmental elections of 2011 brought new governors and
mayors into office in January 2012. Because their support was critical to the success of the
consolidation strategy, Tetra Tech had to delay the introduction of activities so the newly elected
officials could learn about and support the process.

Security Concerns Limited Access. Consolidation activities cannot start until the Colombian
military and security forces have guaranteed that the area is free of armed groups. The security
situation is beyond the control of Tetra Tech, and it has not improved as much as anticipated in
a few areas because combatants have shifted from open armed combat to low-intensity
hostilities. The security situation in the initiative’s targeted areas changes regularly; in some
cases, violence, strikes, or the threat of them have delayed activities or completely prohibited
Tetra Tech from having access to the area.

Inclement Weather Caused Problems. Tetra Tech postponed three activities because of poor
weather conditions. Colombia had an extended rainy season, which prevented the construction
team from completing work and caused significant damage.

Tetra Tech Had Staff Problems. Tetra Tech had trouble keeping some of its important
positions filled. For example, it already has replaced the chief of party, one of two deputy chiefs,
and directors in the Villavicencio and Florencia field offices. In the Ibagué office, Tetra Tech was
seeking a replacement after its second field office director left. These regional offices are
located in less desirable locations, making them harder to staff.

In addition, Tetra Tech has not yet adjusted its budget to reflect changes in office sites and
openings. The locations of two regional offices differed from what was in the contract, Tetra
Tech opened four regional offices instead of six, and some of those started later than
anticipated. The office locations were changed based on the demands of the Colombian
Government.

The situations described above contributed not only to slow progress, but also to delays in Tetra
Tech’s completion of deliverables and milestones. For example, the first strategic review, annual
work plan, and performance management plan were submitted several weeks or months late,
as detailed in Appendix IV.

The slower-than-anticipated pace of implementation also had implications for the CELI-Central
budget. As the initiative approached its midpoint in September 30, 2013, only 31.3 percent of
the funds budgeted had been spent. Specifically, the expenses for program management
amounted to 51 percent of its budgeted amount, while only 24 percent of the $74 million activity
fund had been spent. USAID/Colombia officials emphasized the need for more rapid use of the
activity fund.

Despite the delays in implementation and the failure to make significant progress toward
intended results, USAID and Tetra Tech had not yet adapted their work plans and budget to
reflect the need for more aggressive spending in future years. USAID/Colombia and Tetra Tech
officials were optimistic about the initiative’s remaining months and felt that only minor changes
needed to be made.




                                                                                                  5
Unless the mission updates work plans and budgets to reflect the initiative’s limited initial
results, the implementer will be at increased risk of not achieving all intended objectives. To
ensure the timely completion of this process, we make the following recommendation.

      Recommendation 1. We recommend that USAID/Colombia work with Tetra Tech to
      modify the overall budget and work plan to take into account the low level of spending
      during the initiative’s first 2 years and the necessary changes in the budgets of each
      regional office.

Agency Does Not Have Counter-
Trafficking in Persons Training for
Implementers
USAID has identified human trafficking as a massive development problem affecting millions of
men, women, and children. According to the Counter-Trafficking in Persons and
Contractor/Recipient Compliance: Agency-Wide Standard Operating Procedure, USAID is
reinvigorating its counter-trafficking in persons (C-TIP) efforts and demonstrating a renewed
commitment to being a leader in C-TIP. The standard operating procedure states that USAID
must train its employees so they know how to recognize, report, and address human trafficking
offenses. Although the guidance focuses on C-TIP training for new USAID employees, annual
ethics training, and the availability of training for acquisitions personnel, it does not address
training implementers. In the 2012 Counter-Trafficking in Persons Policy, USAID highlights the
five primary objectives relating to trafficking, one of which is to combat trafficking through
training and coordination.

A recent OIG review of USAID’s C-TIP program found that C-TIP coordinators in overseas
missions did not know what their responsibilities were in terms of providing training or guidance
to implementing partners.2 Coordinators did not receive training on their responsibilities,
including training implementing partners. Lacking that training and specific direction from
Washington, USAID/Colombia has not provided training to its implementers on C-TIP or
disseminated the Agency’s April 2013 Counter-Trafficking in Persons Field Guide to
implementers.

While USAID/Colombia staff may occasionally visit field operations, implementers are in the
field observing the daily activities of the Agency’s subawardees and beneficiaries. The
implementers therefore are most likely to observe any instances of trafficking. Yet by not
training them on how to identify potential trafficking, USAID/Colombia is not taking advantage of
implementers’ presence in the field.

According to a United Nations Office on Drugs and Crime report, Colombia’s endemic violence
and internal armed conflict, together with the production of narcotics and illicit crops, have made
the country vulnerable to trafficking in persons. Therefore, USAID/Colombia should use all
available resources to detect and report potential trafficking. USAID has not yet determined if or
how it will train implementers. Until this matter is resolved, the mission can at least provide
implementers with C-TIP guidance as it becomes available. We therefore make the following
recommendation.


2	
     Review of USAID’s New Counter-Trafficking in Persons Program, Report No. 9-000-14-001-S,
     November 27, 2013.


                                                                                                 6
Recommendation 2. We recommend that USAID/Colombia issue to all its implementers
the USAID Counter-Trafficking in Persons Field Guide, which includes guidance on how
to report suspected cases of trafficking through the Office of Inspector General Hotline.




                                                                                            7
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Colombia agreed with Recommendations 1 and 2. The mission made a management
decision on the first and took final action on the other. Our evaluation of management
comments follows.

Recommendation 1. USAID/Colombia agreed and has prepared a 2014 work plan that
increases the monthly rate of spending budgeted funds by an average of 35 percent. The COR
and the contracting officer approved the work plan.

The mission modified indicators to reflect the initiative’s current activities and progress and
modified targets to align with the Government of Colombia’s pace on consolidation activities.
The mission also cut the number of indicators from 35 to 27.

The mission’s acquisition officials, the CELI-Central COR, and the implementer were discussing
a budget realignment to reflect that CELI-Central’s work in four regions instead of the six
planned in the award. USAID/Colombia expected to complete the budget realignment by mid-
January.

We acknowledge the mission’s management decision to take these actions on the
recommendation.

Recommendation 2. USAID/Colombia agreed and has distributed the C-TIP Field Guide to all
implementing partners. Furthermore, the USAID/Colombia Regional Legal Advisor presented
the C-TIP code of conduct and implementing partner obligations at a recent meeting of
implementing partners, issuing a summary of the requirements to each participant. The
mission’s documented corrective steps constitute final action on this recommendation.




                                                                                             8
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/San Salvador conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

The purpose of this audit was to determine whether USAID/Colombia’s CELI-Central was
achieving its main goal of helping the Colombian Government become a sustainable presence
in target municipalities.

The mission awarded Tetra Tech a cost-plus-fixed-fee completion contract for approximately
$115 million from April 20, 2011, to April 19, 2016. As of September 30, 2013, cumulative
obligations for the initiative totaled $49 million, and expenditures were $36 million. We tested
the amount spent.

The audit covered activities that occurred from the start of the contract on April 20, 2011,
through September 30, 2013; we reviewed a portion of the hundreds of Tetra Tech grant
activities worth $2.7 million.

In planning the audit, the auditors identified relevant controls that USAID/Colombia used to
manage the program and oversee its activities. These controls consisted of the review of Tetra
Tech’s quarterly and annual performance reports, approval of annual work plans, holding
meetings with Tetra Tech to obtain updates on the status of activities and discuss any
implementation issues, and conducting field visits to talk to stakeholders. In addition, the
auditors examined the mission’s portfolio review notes and its FY 2013 annual self-assessment
of management controls, which missions are required to perform to comply with the Federal
Managers’ Financial Integrity Act of 1982, to determine whether the assessment cited any
relevant weaknesses.

The audit team conducted fieldwork from September 3 through September 20, 2013, in Bogotá
and the departments of Cauca, Meta, and Tolima. We visited USAID/Colombia and Tetra Tech’s
offices in Bogotá and three of the project’s four regional offices (Ibagué, Popayan, and
Villavicencio). These offices cover activities in the departments of Cauca, Meta, Tolima, and
Valle del Cauca. Because of security restrictions, we canceled plans to visit the fourth regional
office in Florencia in the department of Caquetá, and the municipalities where activities were
being implemented.

Methodology
To answer the audit objective, we interviewed USAID/Colombia’s COR, contracts specialist,
monitoring and evaluation adviser, and gender and trafficking-in-persons advisers. We reviewed
the contract and its modifications, work plans, the performance management plan, monthly and
quarterly progress reports, financial reports, and other documents.




                                                                                               9
                                                                                       Appendix I


We interviewed Tetra Tech’s chief of party, deputy chief of party for programming, monitoring
and evaluation specialist, contracts specialist, and staff from three of the four regional offices.
We reviewed Tetra Tech’s policies and procedures for monitoring and evaluation and for grants
management. Finally, we interviewed dozens of CELI-Central beneficiaries, including
government officials and farmers.

We used a statistical sample and selected 15 activities (2 closed, 7 ongoing, and 6 in closeout)
out of 574 for field visits. The sampled activities amounted to $2.7 million or 2 percent of the
total of $115 million. We selected the sample randomly from the sites approved by
USAID/Colombia’s security office for travel. The final itinerary was refined through discussions
with USAID/Colombia and Tetra Tech staff. Site visits were conducted in three of the four
regions where the initiative was being implemented. Field visits were used to validate the use of
funds and to document aspects of monitoring, reporting, and compliance with environmental
requirements. Since the statistical sample was drawn from an approved selection and not from
the universe of activities, the sample results cannot be projected to the entire population.




                                                                                                10
                                                                                 Appendix II



MANAGEMENT COMMENTS 


December 10, 2013

MEMORANDUM

TO:	                Regional Inspector General / San Salvador, Jon Chasson

FROM: 	             USAID / Colombia Mission Director, Peter Natiello

SUBJECT:	           Audit of USAID/Colombia’s Consolidation and Enhanced Livelihood
                    Initiative (CELI) Central Region (Report No. 1-514-14-0XX-P)

This memorandum transmits our comments and responses on the draft report for the
recent audit of Consolidation and Enhanced Livelihoods Initiative Central Region
(Report No. 1-514-14-OXX-P).

Recommendation 1: We recommend that USAID/Colombia work with Tetra Tech
to modify the overall budget and work plan to take into account the low level of
spending during the initiative’s first 2 years and the necessary changes in the budgets
of each regional office.

USAID/Colombia agrees with the recommendation and we are taking the following
corrective actions:

   	 The FY 2014 work plan is reflective of a program that is entering its peak phase
      of implementation. The planned number of activities and their dollar value is
      significantly higher than in previous years therefore projected monthly burn rates
      will increase by an average of 35 percent in FY 2014. The work plan has been
      approved by the Contracting Officer’s Representative (COR) and by the
      Contracting Officer.
   	 On December 9, 2013, CELI Central submitted a budget realignment request that
      is currently under discussion between the Office of Acquisition and Assistance
      (OAA), the COR and CELI Central. The contract modification that will formalize
      this request will reflect the fact that CELI Central is operating in four geographical
      regions rather than the six originally contemplated at the time of award.
      USAID/Colombia’s OAA expects to have the budget realignment modification
      completed by mid-January.
   	 The total number of project indicators has been reduced from 35 to 27. The
      modified project indicators are more reflective of current project activities and
      more within the control of CELI Central to effect. In addition, targets are being


                                                                                         11
                                                                              Appendix II


      adjusted downward in some cases to reflect the fact that Government of
      Colombia (GOC) counterpart funding for some activities has been slow to
      materialize. Furthermore, and as noted in the audit report, CELI Central’s
      principal counterpart, the Consolidation Unit, did not become fully operational
      until several months after the project was awarded. Given that Consolidation is a
      GOC led initiative, the pace at which CELI Central can implement programs is
      largely dependent upon the government.

Recommendation 2: We recommend that USAID/Colombia issue to all its
implementers the USAID Counter-Trafficking in Persons Field Guide, which includes
guidance on how to report suspected cases of trafficking through the Office of Inspector
General Hotline.

USAID/Colombia agrees with the recommendation and has taken the following
corrective actions:

                The USAID/Colombia Regional Legal Advisor gave a presentation to all of
                 USAID/Colombia’s implementing partners on the Trafficking in Persons
                 Code of Conduct and implementing partner obligations at our
                 implementing partners meeting on October 21, 2013. In addition, the
                 implementing partners each received a one page summary of the
                 requirements (attached).
                 USAID/Colombia’s OAA e-mailed the C-TIP Field Guide to all
                 implementing partners on December 4, 2013.



Sincerely,


Peter Natiello,
USAID/Colombia
Mission Director



Attachment(s):
1. One page summary of C-TIP Field Guide




                                                                                      12
                                                             Appendix III 



                  Map of Regions Covered by the Initiative




Source: Tetra Tech.




                                                                       13
                                                                                                 Appendix IV


                                   Deliverables Submitted Late
USAID’s contract with Tetra Tech established dates for completing required deliverables or
milestones. The table below shows that several were not submitted and approved on time.

                      Completion Dates for Contract Deliverables or Milestones
      Deliverable or Milestone in Contract                Due Date      Submission/         COR         Days
                                                             Per         Start Date       Approval      Late*
                                                          Contract                          Date
Start-up conference                                        4/25/11          5/23/11         N/A              28
Start-up work plan                                         4/29/11          6/15/11       6/23/2011          47
Grants management plan                                     5/20/11          5/28/11       6/16/2011          8
Field procurement guide                                    5/20/11          6/17/11       7/5/2011           28
Communications,       emergency,    and   information      6/19/11          6/22/11       9/5/2011           3
security plan
First annual work plan                                     6/19/11          7/31/11       7/25/2012          42
Initial performance management plan                        6/19/11         9/15/11           N/A         88
First quarterly strategy review                            7/19/11        12/13/11           N/A         147
Buenaventura office operational                            5/15/11           Never           N/A         N/A
                                                                            opened
Villavicencio office operational                           5/15/11          7/8/11           N/A             54
Chaparral office operational (office was opened in         5/15/11        10/18/11           N/A         156
Ibague instead)
Source: Tetra Tech.
* These are based on the submission date. The COR approval date may occur several days or weeks afterward.

The challenges described earlier in the report hampered Tetra Tech’s ability to complete
deliverables and reach milestones as planned. In the cases of the performance management
plan and first annual work plan, USAID/Colombia explained that the documents initially
submitted needed to be revised.




                                                                                                              14
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
